nl

OCKLE

2311 Douglas Street A L l Brief E-Mail Address:
ega riets
Omaha, Nebraska 68102-12 2 contact@cocklelegalbriefs.com
ha, Nebrask 1214 8 Est 1923 @ecocklelegalbriek
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 21-10

LORI BRAUN, AS ADMINISTRATRIX OF THE ESTATE
OF CASSANDRA BRAUN, DECEASED, INDIVIDUALLY
AND ON BEHALF OF ALL WRONGFUL DEATH
BENEFICIARIES OF CASSANDRA BRAUN,
Petitioner,

Vv.

BRIAN RAY BURKE, TROOPER, INDIVIDUALLY
AS AN OFFICER OF THE ARKANSAS STATE POLICE;
BILL BRYANT. COLONEL, INDIVIDUALLY AS
THE CHIEF EXECUTIVE OFFICER OF
THE ARKANSAS STATE POLICE.
Respondents.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 31st day of August, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the REPLY BRIEF in the above entitled case. All parties required to be
served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
MICHAEL AARON AVERY PAUL J. JAMES ANDREW C. CLARKE

Counsel of Record JAMES & CARTER, PLC THE COCHRAN FIRM-MIDSOUTH
1219 Rockrose Road N.E. PO Box 907 One Commerce Square,
Albuquerque, NM 87122 Little Rock, AR 72203 Suite 1700
Tel. 617-335-5023 Tel. 501-372-1414 .

~ Memphis, TN 38103

BSE p -372-165'

mavery@suffolk.edu Fax 501-372-1659 Tel, 901-523-1222

ai aw
pji@jamescarterlaw.com Fax 901-523-1999

Counsel for Petitioner aclarke@accfirm.com

Subscribed and sworn to before me this 31st day of August, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY State of Nebraska Q Dedeicaill Chi,
RENEE J. GOSS .

My Comm. Exp. September 5, 2023

 

 

Notary Public Affiant 41413
Jennifer Merrit - jennifer.merritt@arkansasag.gov

Leslie Rutledge — Attorney General - oag@arkansasag.gov
323 Center Street

Suite 200

Little Rock, Arkansas 72201

501-682-1319

Attorney for Colonel Bill Bryant

Brian W. Ray — brian@ccrlaw.com
Matthew G. French
matthew@ccrlawfirm.com

912 West 4th Street

Little Rock, Arkansas 72201
501-603-9911

Fax 501-603-9919

Attorney for Brian Ray Burke
